Report No: D-2007-077       March 28, 2007




         Timeliness of Payments for
           Reenlistments Bonuses
                in the Army
                                INSPECTOR GENERAL

                               DEPARTMENT OF DEFENSE

                                 400 ARMY NAVY DRIVE

                            ARLINGTON, VIRGINIA 22202-4704





                                                                          March 28, 2007

MEMORANDUM FOR PRINCIPAL DEPUTY ASSISTANT SECRETARY OF THE
                 ARMY ON MANPOWER AND RESERVE AFFAIRS
               DIRECTOR, DFAS-INDIANAPOLIS
               AUDITOR GENERAL OF THE ARMY

SUBJECT: Timeliness of Payments for Reenlistment Bonuses in the Army
         (Project No. D2006-DOOOFP-0253.000)

We are providing this audit memorandum for your information and use. The audit was
initiated because the Army expressed concern about the timeliness of payments for
reenlistment bonuses. We also addressed the concerns a soldier's widow had about the
timeliness of his reenlistment bonus.

Background. DFAS-Indianapolis is responsible for paying more than $104 billion
annually. DFAS-Indianapolis provides services to more than 1.9 million people
including Army active and Reserve Component soldiers, their families, former soldiers,
and spouses. DFAS-Indianapolis also provides oversight for a network of eight operating
locations and centralized accounting and reporting for other DoD agencies and the Air
Force.

Military pay was a significant portion of the Army Budget for FY 2006. The Army
budget for FY 2006 was approximately $98.6 billion. In FY 2006, the Army spent
approximately $41.4 billion (42 percent of the budget) for Army military personnel.

According to DoD Instruction 1304.29, "Administration of Enlistment Bonuses,
Accession Bonuses for New Officers in Critical Skills, Selective Reenlistment Bonuses,
and Critical Skills Retention Bonuses for Active Member," December 15, 2004, bonuses
are intended to influence personnel inventories in specific situations when less costly
methods have proven inadequate or impractical. This instruction defines the Selective
Reenlistment Bonus (SRB) as the principal monetary incentive employed for maintaining
adequate numbers of enlisted personnel with critical skills needed to sustain the career
force. Service members are eligible to receive an SRB if reenlisting for at least 3 years.
To be eligible for an SRB, Service members must be qualified in a military specialty
designated by the Secretary of the Military Department, serve in pay grade E-3 or higher,
and reenlist within 3 months after separation from active duty.

The Army made 70,754 SRB payments, totaling approximately $654 million, to its
members in FY 2006. DFAS paid the SRB to the Service members in either a single
lump sum or installments. DFAS normally paid the single lump sum or initial payment
on the day of reenlistment or the date a member began serving in a qualifying extension.
                                                                                           2



Results. The Army requested our audit of the timeliness of reenlistment bonus
payments. We determined that DFAS Indianapolis paid reenlistment bonuses to 28,569
Army Service members between January 2006 and July 2006. Of these, 27,927 Service
members (97.75 percent of the 28,569 members paid) had properly received a
reenlistment bonus within 30 days after their reenlistment date, as recorded in the Army's
Reenlistment, Reclassification, and Assignment System (RETAIN).

In addition, the Army requested our assistance in determining why one Service member's
bonus was not paid in a timely manner. This late reenlistment bonus payment resulted in
his widow's not receiving an incremental part of his bonus. The deceased soldier's bonus
should have been paid in March 2005. He died in June 2005, and DFAS paid the
remainder of the reenlistment bonus in May 2006. This soldier's widow wrote the
Secretary of Defense a letter stating that DFAS Indianapolis's late payment of her
deceased husband's reenlistment bonus caused the payment to go to his designated
beneficiary instead of her.

The widow's late husband was entitled to a Broken Service Selective Reenlistment Bonus
(BSSRB) after his reenlistment in March 2004. According to Army Regulation 601-280,
"Army Retention Program," January 31, 2006, the Army provides a BSSRB to prior
Service members with a break in active duty of more than 3 months. The Army had
established that the soldier's total BSSRB would be $12,193.20, and DFAS had
established an installment payment of$I,219.32 for payment on March 14, 2005. Had
the $1,219.32 been paid on March 14, 2005, when the soldier was still alive, this payment
would have been sent to his bank account and been assessable to his wife. Because
DFAS paid the BSSRB bonus after the soldier's death, the unpaid part of the bonus
became part of his unpaid pay and allowances and was paid to his beneficiary, as required
by the DoD FMR, volume 7a, chapter 36, "Payments on Behalf of Deceased Members."
The deceased soldier had not listed his current wife as his beneficiary on his DD Form 93
(Record of Emergency Data) so she did not receive the $1,219.32.

We identified two reasons for this late BSSRB payment. Our examination of the DFAS
process transaction file showed that the deceased soldier did not receive his bonus on
March 14, 2005, because DFAS entered an incorrect transaction code into the Defense
Joint Military Pay System (DJMS). IfDFAS had properly coded this bonus into DJMS,
the late soldier's bonus payment of$I,219.32 would have been sent to his bank account
in March 2005. The entry of this incorrect transaction code was not a systemic error; it
was due to human error. The internal controls at DFAS-Indianapolis were not adequate
to detect this error in a timely manner.

A second reason for the deceased soldier's late bonus payment was because DFAS's
DJMS and the Army's RETAIN did not effectively interface when transmitting
reenlistment bonus payment data. This required extensive manual processing, which
delayed payments. Career counselors used the RETAIN system to enter Service
members' reenlistment bonus data. Personnel at the Army RETAIN Headquarters
captured the SRB data weekly and entered it into an Excel spreadsheet. Army personnel
                                                                                          3

sent the Excel spreadsheet with reenlistment bonus data to a DFAS pay technician. The
DFAS pay technician computed the reenlistment bonuses, checked the accuracy of the
bonus calculations, and then imported the bonus data to the Defense Military Pay Office
(DMPO) system for processing. A DMO pay technician reviewed the bonus payment
data and released it to DJMS for further processing and payment to Service members.

Without an effective interface between RETAIN and DJMS, a greater chance exists that
reenlistment bonus data will not be transferred correctly or quickly. This lack of an
interface continues to exist. The Army has recognized this problem. The Army and
DFAS have conceptualized an interface for transmitting reenlistment bonus payment data
between DJMS and RETAIN. However, formatting issues between the two systems have
delayed the implementation of the interface. The Army and DFAS cannot provide an
implementation date for the interface. In addition, the schedule for establishing the
interface has continued to slip because of the formatting issues and DFAS’s untimely
analysis of the interface test file .

Because the Army had requested our assistance with only one soldier’s late bonus
payment, we did not examine in detail why the other 641 Service members received late
reenlistment bonus payments. However, in our examination of this one late payment, we
did examine practices and procedures required to pay any reenlistment bonus. Nothing
came to our attention to indicate that there were causes other than improper coding and
the lack of interface to explain the late payments. Nevertheless, we are continuing to
examine why late reenlistment bonus payments occur. We have initiated another audit to
examine internal controls currently in place and those necessary to ensure the proper and
timely payment of reenlistment bonuses.

Scope and Methodology. We conducted this performance audit from September 2006
through December 2006, in accordance with generally accepted auditing standards. In
order to obtain a complete understanding of Army policy related to this audit, we also
interviewed personnel in the Office of the Assistant Secretary of the Army Manpower
and Reserve Affairs, Casualty and Memorial Affairs Branch. In order to achieve the
audit objective, we obtained data from the DJMS, Service member military pay files, and
supporting documentation. We also reviewed a DFAS Indianapolis internal review draft
report . We used data mining to determine how many SRB payments in DJMS were
made more than 30 days after the Service member’s reenlistment date as recorded in
RETAIN. To determine procedures and controls, we interviewed DFAS personnel
responsible for processing bonuses at DFAS-Indianapolis, Army reenlistment counselors
responsible for entering data into the RETAIN system, and Army RETAIN Headquarters
personnel.
                                                                                      4




We appreciate the courtesies extended to the staff. For additional information on this
memorandum, please contact Mr. Douglas Neville at (703) 428-1061 (DSN 328-1061) or
Mr. Joseph A. Powell at (703) 428-1052 (DSN 328-1052).


                             By direction of the Deputy Inspector General for Auditing:



                               (~=

                       Assistant Inspector General and Director

                         Defense Financial Auditing Service



cc:

Army Inspector General

